APPENDIX
Page
9 (J.-S* P'rebfiitci') btfite , Supervisor krishn M. tierrem____

Dccumujs. vmfyiny ewr-dafeeiafed O.S.S.^. Seidfytkm -range

JIM

0 Senkntm Aihr/it

f JedM^Meckmitld^ic.___________________

Le tier ^ dih-bir. C/A a/lny4iy>^ persona! issues

SenkuMW)

AS

9 U-S. bisirieh four!. Ak ZM-tr-.W (Sb.U)_________________
Si^bhcim irtanswifk, rekkd ~b use dfi Oi/rr-Aalru/^k/ SonktidtiQ fancy
0 2ZSS MAiotf ti-fHiamhddtn. hlo.

MM

5fe fsj>.u)____________

Doatupfeah, relabd h lAt tiaim rejardinj Sinkm^/Afpellale totiffsel

AtlSO

0 U.S. Dtsiir/cd dour!. Mo. r.lO~^s°iZ (sXiAA_______________
6nk-r AsW/ssm Z2.S5 MoilOil IMidlowf Diddr^SS

fkim lGd.fj). Or £(*)

AH-A37

6 US. biskric! Court. tin. W0-M-&1 (S.b- IA)________^________ .
Moi'ic/l Ar ’Judif jal CuliHQ on Maim ASA Addressed M Dnyiml fjtibmS. {kfifm
0 U.S- kl^Ar/ci Court . Uo. ddO-CY-StS (s.p.

A3Z-AW

ia j

Drkr- Ah y/m Motinh far ’Judicial Pul/hi nii CldiOls Xlbf Addressed

MS

0 Eighth Lirtud (Surf oP ApppJs. Ale. fl -3/AS_______________
ZuAojmmi hPftrmm denial oP Judicial /aim on Ckids Aid Addressed

A4L

0 Habras Eeiiefi Sooiejht_____________
_boeMirtoifh, related ~h diliwMee Jfi swkim A\abpi<± pelted

—Appendix A —

AH7-AS0

hi
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF IOWA
U.S. Probation / Pretrial Services
Michael J. Elbert, Chief
U.S. Probation Officer
110 East Court Avenue, Room 127
Des Moines, IA 50309
515-284-6207
Fax - 515-284-7388

Timothy F. Heinrichs, Deputy Chief
U. S. Probation Officer
131 East 4th Street, Room 075
Davenport, IA 52801
563-884-7626
' Fax - 563-884-7635

..tV © ,, %
-r

.?

Council Bluffs Divisional Office
Eight South 6th Street, Room 354
Council Bluffs, IA 51501
712-322-2071
Fax-712-322-2099

Reply to Des Moines
June 7, 2012

“We serve an independent Court and the community by impacting lives.”
Tracy Barnett, Reg. No. 08201-030
FCi Petersburg Medium
Federal Correctional Institution
P.O. Box 1000
Petersburg, VA 23804
Dear Mr. Barnett:
We are in receipt of your case manager’s letter dated May 30, 2012, in which you request the U.S. Probation
Office (USPO) review your presentence report (PSR) based on alleged inaccuracies. Specifically, you allege
that criminal history points were improperly assessed in paragraphs 46 and 49 of the PSR. The USPO
reviewed your PSR and disagrees that criminal history points were improperly assessed in paragraph. 46;
however, it appears the conviction contained in paragraph 49 of the PSR should not have received criminal
history points. Specifically, the USPO believes the conviction contained in paragraph 49 of the PSR was
uncountable pursuant to USSG §4A1.2(c)(1H2). Furthermore, if the conviction contained in paragraph 49
does not receive criminal history points, two points were improperly assessed pursuant to USSG §4A1.1(d).
After subtracting the three points erroneously assessed, the revised criminal history category would be V, for a
guideline imprisonment range of 210 to 262 months.
Although the USPO believes an error was made in your PSR, we are unable to modify your PSR because,
after sentencing, only the Court can order a change to the presentence report. The Bureau of Prisons
Program Statement 5800.11(15)(c) outlines your ability to challenge information in your Inmate Central File,
but clearly states that USPO procedures do not allow for changes to be made to our reports.
Sincerely,

Kristin M. Herrera
Supervising U.S. Probation Officer
CC:

Evangela Brown, Case Manager

.

Ex. 01

hi
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF IOWA
U.S. Probation / Pretrial Services
Michael J. Elbert, Chief
U.S. Probation Officer
110 East Court Avenue, Room 127
Des Moines, IA 50309
515-284-6207
Fax - 515-284-7388

Timothy F. Heinrichs, Deputy Chief
U. S. Probation Officer
131 East 4th Street, Room 075
Davenport, IA 52801
563-884-7626
Fax - 583-884-7635
^o"A "<l.v

'tlS*':!

Council Bluffs Divisional Office
Eight South 6th Street, Room 354
Council Bluffs, IA 51501
712-322-2071
Fax -712-322-2099

Reply to Des Moines
August 17, 2012

“We serve an independent Court and the community by impacting lives.”
Tracy Barnett, Reg. No. 08201-030
FCl Petersburg Medium
Federal Correctional Institution
P.O.Box 1000
Petersburg, VA 23804
Dear Mr. Barnett:
We are in receipt of your letter dated June 19, 2012, in which you again request the U.S. Probation Office
(USPO) review your presentence report (PSR) based on alleged inaccuracies. In this letter, you allege that
the conviction contained in paragraph 46 should not receive criminal history points. You provided the state
court records regarding this conviction, which reflect that the sentence was suspended. This is contrary to
what is reflected in paragraph 46 of your PSR. Because the sentence was completely suspended, the
conviction contained in paragraph 46 of the PSR should only have received one criminal history point and not
the two that were assessed. After subtracting the hone point erroneously assessed, the revised criminal
history category would be IV (nine criminal history points), for a guideline imprisonment range of<188 to 235 f
^months)1
Although-the USPO believes an error was made in your PSR, we fare unable to modify your PSR because,
rafter sentencing, oniy the Court can order a change to the presentence report. The Bureau of Prisons
Program Statement 5800.11 (15)(c) outlines your ability to challenge information in your Inmate Central File,
but clearly states that USPO procedures do not allow for changes to be made to our reports.
Sincerely

Kristin M. Herrera
Supervising U.S. Probation Officer
CC:

Evangela Brown, Case Manager

Ex. 0 2

fg
Case: 08-3350

Page: 1

BRECKHMFELDER
LwFiiM

Date Fijed: .12/08/2008-Entry ID: 349683-9
22D North Main Street Suite 501
Davenport, Iowa 52501-1008
Facsimile: 503.322.7B70
Tolophone: 503.322.1000

December 5, 2008

r\ CONFIDENTIAL
COS Court of .Appeals for Lie Eighth Circuit
111 South 10th Street, Room 24329
SI Louis, MO. 63102
ATTN: Michael E. Gans, Clerk of Court
Dear Clerk Gans:
This letter will reply to the Rule to Show Cause entered in this appeal November 18, 2008.
I have been operation under somB significant practice stress as a result of a fleeting medical disability
and a crush of current financial problems, which may require moving my law office. These
combinations interfered, with my ability and preparations for sentencing In this case, which was a
complicated representation already (I was appointed under CJA after three different federal public
defenders had been assigned). I sought assistance and was appointed co-counsel to complete
sentencing; however, co-counsel asked to be withdrawn at sentencing hearing due to the complications
of this case and consequently did not assume any ongoing responsibility.
am willing to complete a brief and finish representation in this matter, if allowed sufficient time. Please
reset this matter extending time to include January 30, 2009, which will allow me to recuperate and
have my affairs in order, If that is not within reason, than please appoint successor counsel so l may
transfer my responsibility In this matter.

Sincere tv*/ /

Ted Brpckanfeldar
Atti
!y & Counselor at Law

** Notp‘ Petitioner was sentenced to
twenty (20) years because his
attorney had health / financial
issues which ''filterfered!' with
his "ability and preparations
for sentencing in this case."
— He failed to object to the
miscalculated PSR / U.S.S.G.
sentencing range.

Rx.ni

R^CEIVeq
D£C 8 2008

©
1

©

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF IOWA
DAVENPORT DIVISION

2
3

UNITED STATES OF AMERICA,
4

)
->)CASE NO.

S

Plaintiff,
vs .

6
7

TRACY ALAN BARNETT,

a
Defendant.
9

1

3:06-cr-599

)
)

- THE COURT

2

United States of America

3

Case 3s 06 -cr-5 99.

sentencing based on his October 10th,

is present and

)
)
)

7

by Ted Breckenfelder,

e

by Rich Westphal.

The Honorable John A.

i

9

I

20

24

Based on your review

of the

12

Breckenfelder,

prcflcntcncc report; la that right?
MR.

19

gone through that in

20

Barnett has not

25

THE ■?0URT;

not receive
week,

the final

THE COURT

22

different from the previous

23

him?

Mr.

and I

the

to most of
I submitted

Che final

any measure of

21

copy of

the

really haven't

detail,

and-.Mr.

copy of the

And how ie the final

report.
report

ones that you reviewed with

MR. BRECKENFELDER

25

24

Been

We objected

June letter that

report until Monday of this

24

25

I did

this matter.
report,

every paragraph of

BRECKENFELDER:

to probation.

represented

it's my understanding

Mr.

is objecting to

in

preBentence

with your client,

them as summarized in the

2007

e presentence report and the

were filed

13

Barnett

for

of

represented

government'e

14

IB

Kara M. Sullivan, CSR, RPR
Certified in Iowa & Illinois
637 4th Avenue West
Andalusia, Illinois 61232

23

11

17

•
REPORTER:

have reviewed th
that

IS

21
22

and the

sentencing memoranda

15

ATTORNEY TED E. BRECKENFELDER.
Attorney at Lew,
220 N. Main Street, Suite 501,
Davenport, IA 52801,
appeared on behalf of the Defendant.

19

He

Jarvey, U.8.

APPEARANCES: ATTORNEY RICHARD D. WESTPHAL,
Assistant U.S. Attorney,
131 E. 4th Street,
Davenport, IA S20O1,
appeared on behalf of the Plaintiff.

18

pleas

superseding indictment.

District Judge.

17

2007

the April 10th,

COPY

the

Criminal

Barnett is before The Court

guilty to Counts 1 and 2 of

13

IS

Mr.

6

The hearing commenced at 10:30 a.m. on
September 19, 2008,

16

versus Tracy Barnett,

s

11

BBFORE :

in the matter of

4

10

14

are here

)TRAN6CRIPT OP
)SENTENCING PROCEEDINGS

10

12

We

Just in general terms,

it

appears that the offense level has changed from 30 to
Kara M. Sullivan Reporting
Andalusia, Illinois (309) 798-5196-

Mr. Breckenfelder, does he object

,to_the criminal history points qlvan to him In
Kara M. Sullivan Reporting
Andalusia, Illinois (309) 798-5198

©
l

'Paragraphs 4<

through 49 of the presentence report?

2
3

2008,

reserved that,

and in

4

my communications with him pending my

me an t to visit With him with this letter in hand to

6

6
9
10

review with him.

He did raise points in the

the calculation should be
entirety out of

seven In

its

those points

THE COURT:
anything about

five instead of

There * a

11

I

don't understand

THE COURT:

MR.

5

THE COURT:

I’m just reading very

statement is that the subtotal should be

9

points, and under Paragraph 51, his statement is that

THE COURT:
we - -

MR.

BRECKENFELDER:

14

had communicated to me.

15

position of that.

the number of points

18

MR.

19

with respect to that

20

document?

19
20

21
22

I ' m aware

conviction.

I think there's objection to the

THE COURT:

descriptions that are contained within the reports.

21
22

government

23

Independently prove

24

offenses,

r

said,

I

also

THE COURT:

24

MR
with,

this

The description of --

:

BRECKENPELDER
_____

I know what we're dealing

■account of criminal history computation.
Kara M. Sullivan ReDortinn

25

I

THE COURT:

I'm just reporting what he

those

events.

Did that help The Court

provision of

the sentencing

So long as I

know that

prove that he

was

the
--

that he was convicted of those

that his objection is just

criminal history

How would

can't.vouch for that or the

associated with

doesn't hove to

and

that?

that to get to that number?

We will Independently determine

BRECKENFELDER :

And as

23

25

of, of an objection to public records of

So how do we do

how do you calculate

17
that

his.

five to seven

the total should be seven to nine points ■

11

offenses in Paragraphs 44 through 49?
there ' a no basis,

And also the point

6

17

No,

Yes .

Because under Paragraph 4 9,

16

BRECKENFELDER:

are

of the conduct?

Okay.

MR. BRECKENFELDER:

assigned, does he deny that he was convicted of thooe

MR.

When you say the descriptions,

BRECKBNFELDER :

16

18

the report.

differential.

13

Aside from the number of points

of

7

12

quickly what I

15

THE COURT

you saying the descriptions

4

10

five or seven.

MR. BRECKENFELDER:

3

6

and I believe has a statement or two indicating that

13

14

I

-communication after that to me about thooe paragraphs.

11
12

because

that was dealing with the May let draft

2

The objections that I
referenced on June 11th of

5

n

1

points ,

and that

he

the attachment
disagrees with

A5

1H THE UHJTED STATES DISTRICT COU RT
FOR THE SOUTHERN DISTRICT OT IOHA
DAVENPOnT DIVISION

2

1

3
UNITED STATES OF AMERICA,

I

)
itI'veCRIMINAL HO.

4

Plaintiff,

1

5
fi

TRACY ALAN BARNETT,
T
Dalondent.

e

3:06-01-597^

I"*'TRANSCRIPT OF
)
PROCEEDINGS
)\ SENTENCING

9

^ THE COURT':

TRANSCRIPT OF PROCEEDINGS, held before the Honorable John

11

Jarvey, at the Federal Courthouse, Davenport, Jowa, commencing
2:37 p.a.)V0ctobed 8, 2000,,reported by Linda Faurote-Egbers,

13

Certified Shorthand Reporter and Notary Public for the State of

14

Iowa,

matter of United States of America vorsue Tracy Alan Barnett,

3

Criminal Caee 3:06-cr-599.

4

oome tine ago, but when we gathered for that eentencingf^Tt

'

16

APPEARANCES

17

Plaintiff byi

16
19

This Batter was aet for sentencing

5

Cdqeefmined that Hr. Barnett.hwd not had an opportunity to~revlcw

6

Cth* final Version of the Presentence Report.

Since than Hurray

7

Ball ha* been appointed to supplement the defense team in this

B

natter.
He are hore for eontenclng based on the defendant's

10

October 18, 2007, ploaa of guilty to Counts 1 snd 2 of the April

11

10, 2007, superseding Indictment.

12

repreoented by Murray Bell and Tad Breckenfeldor, the government

13

is ropreaontod by Rich Hostphal.

14

IS

re7

He are her* tn the

2

9

10

Please be sooted.

The defendant ie preeent and

Vlt le 71 bo my recollection tharTolTowlng the~l¥i~tiBl

IS

<draft~of-the^Prceontence ficport~that”th e”'diteTTdant, because he

16

had unsuccessfully moved to withdraw his guilty plea, denied all

RICHARD D. HESTPILAL
Assistant United States
Attorney
131 East Fourth Street
Davenport, IA 52601

17

of tho offense conduct.

TED E. BRECKEHFELDER
■Attorney at Law •
220 North Hein Street
Davenport, 1A 52001
And
HURRAY H. BELL
Attorney st Law
125 Kirk wood Boulevard
Oav enport, 1A S2603

20 <thet they wTre the opproprlcre~~nuaScr~of 'f»int~a.

HefedralUeci to being-

con victed

of

ie *^0ffena~cT for which poUufl~^,~ra ql7?7r~g5~h~lHr^criBlnsrhlet^ry
19

20

Oofondant by:
21
22
23
24

21

the status of this matter? •

23

25

^Note;

Mr. Breckcnfeldor, le thet an accurateirofltctlon of

22

KA. BRECKEHFELDER:

It ie.

Your Honor, with respect

24

to the defendant's sentencing profile, 1 believe I submitted

25

directly to tho Court my copy of the June 11, 2008, tocolmi'le

Date listed (10-08-08)
is incorrect.
Second sentencing hearing
was held on October 01, 2008.

1

exhibits demonstrate penetration of a minor female which

2

qualifies es aedlstic or eaooehiotlc conduct and therefor* he

3

wee appropriately given an increase pursuant to Guideline

4

2C2.2(b)(4) of four levels.

1

!

w

<fthro of probation.

2

Qflth 13 criminal hiettory points, he lands- within

3 ^criminal hletory category Reman Numeral Vii"- Based on

of lens*

4 CTi,vel °f 33, e criminal h'lotory category of VI, he'hai'B"rangs,
5

The offense did involve the

of a computer and he

6

got an appropriate two-level Increase pursuant to Guideline

7

2G2.2(b)(6) and Che offense Involved 600 or more iaages snd

8

accordingly pursuant to 2C2.2(b)(7)(D), he

9

given a five-level increase under the Guidelines.

10

acceptance of responsibility?

15

HR. BRECKENFELDERt

I ea going to remain silent on the

ieaue.
THE

cotmrv.- The

probation office has appropriately

16

refused to give the defendant the benefit of the acceptance of

17

responsibility since at the tine of hie guilty plea he denies

18

having committed any criminal conduct and haa done nothing other

19

than to force the government to its burden of proof on every

20

eigniflcant issue in the case.

21
22
23

2<
25

7

1 would hoar fLrat from counsel snd then from the

6

defendant and thon Iron the prosecutor as to the sentence to be

9

lepceod.
HR. BRECKEHFELDER:

convicted of the offenses aet forth in Paragraphs 44, 45, 46,
47, 40, and 49 of tha Preaentenco Report.

For thet he was

^appropriately given 11 cglmjnariUBtory points'and an additional^,.
corraltted while serving’1’!

Under the factors aet forth in 18

11

(J.S. Code Section 3553, sub-A,

12

defendant that Hr. Barnett ehould receive a sentence of leas

13

then the advisory Guideline range as indicated by the Court'a

14

findings, for thoao reasons es well ae the reasons that the

15

defendant presents himself here alter a very long and Involved

16

pretrial detention, w* would aek the Court to sentence the

17

defendant to the mandatory Blnireum end allow this case to

18

proceed eo that hia legal arguments

19

court.
THE COURT:

20

The Court further finda that the detcndanr^iafl

because-the present offense

6

. 10

Did you want to male an argument in favor of

13
14

Hia total

offense level under the Guideline! la 33.

11
12

appropriataly

5 C. of imprisonment under the advisory Guidelines of between 23 5^ to

behalf! before the Court imposea

sentence?

23

THE DEFENDANT:

24

THE COURT:

• 25

b« made in tho reviewing

Hr. Barnett, io there aomething you would

^21 ■ like to say in your
22

it is the position of the

Hot

this tine.

Hr. Wcatphal7

'MR. WESTPHAL:

Your

Honor,

the government la

hb
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
DAVENPORT DIVISION

TRACY ALAN BARNETT,

)

Petitioner
v.

jMOTION TO VACATE

SET

aside;

)

'OR CORRECT' SENTENCE"

)

PURSUANT TO 28 U.S.C. §2255

)

UNITED STATES OF AMERICA,

)

_____________ Respondent,

)

Case No. 3:06-cr-599

j MEMORANDUM IN SUPPORT OF PETITIONER 1S 22 55 MOTION^ *

Comes Now The Petitioner

Tracy A. Barnett

Pro Se, who

i

requests that the Court file his 28 U.S.C. Motion to Vacate,
Set Aside or Correct Sentence, including this Memorandum in
Support of the §2255 Motion.

Respectfully submitted

//•- Z9-. /0
Date

Tracy A. Barnett
i

Petitioner / Pro Se
Tracy A. Barnett
# 08201-030
Tucson U.S.P.
P.O. Box 24550
Tucson, AZ. 85734

kl
Re: United States v.
Barnett / Case No. 3:06-cr-sqq

Stable of contentsi.

28 U.s.C. §2255 Motion / Memorandum

Page No.

Table Of Contents ........................

i

Table Of Authorities ..............................
Statement Of Jurisdiction /■ Timeliness

iv
ix

tCase History and Facts'N,/ Repeated Abandonment by Counsel

^Summary Of The Case!
1) Kevin R. Cmelik

2

2)' Terence L. McAtee ..

4

3) Diane S. Zitzner ...

9

_£)' -Ted. E. Breckenf elder,

•14>

»5X), Murray W. Bell-,...........

.2 0^

III..28 U.S.C. §2255 Claims-.

1) _A violation of the Sixth Amendmpnf /
•Ineffective Assistance of Counsel^

.'2 7')

2) A violation of the Sixth Amendment /
Speedy Trial / Abandonment by Counsel

i

30

Ji?

_Re: United States .y. Barnett / Cagp

3,06-rr-wg

3) A violation of the Fifth Amendment. /
Double Jeopardy ................

31

4) A violation of the Fourth Amendment /
Unreasonable Search and Seizure

a) Right to a Franks Hearing /
Magistrate Misled by Warrant Affidavit

•3 2

b) Magistrate Abandoned his Judicial Role /
Insufficient Facts for Probable Cause

38

c) Warrant was Unconstitutionally Overbroad /
No Limiting Instructions

54

d) Unreliable Evidence /
Improper Chain of Custody

61

Amendment /

Improper Sentencing /
Miscalculation of Criminal History .........

ii

......... /J67\

Re: United States v. Barnett / Case* No.
3:06-cr-599

k) Prosecutorial Misconduct /
Brady Violation ...........

71

A violation of the Sixth Amendment /
Guilty Plea was
Unknowing and Unintelligent

75

?) Structural Defects in the Proceedings /
Constructive and Actual Denial of Counsel .

. 86

i 8'j A violation of Fed. R- Crim, P., RUie 32 /
Suhstdhh ral-RightsjAfte ct^a

IV.

Relief Sought .........
. . 92

V.

Conclusion
. ... 95

iii

A16

Re: United States v. Barnett / Case No. 3:06-cr-599

SUMMARY OF THE CASE/

On November 9, 2006, Petitioner, Tracy Alan Barnett, was
charged with Receiving / Possessing material involving the
sexual exploitation of minors, in violation of 18 U.S.C.
§2252(a)(2)+(a)(4)(B). Prior to trial, two Federal Public
Defenders (FPD) had abandoned the case without notice to
Petitioner or leave of the Court.
In May 2007, a third FPD was appointed. In the one-year
time leading up to the trial date,'absolutely NO pre-trial
dsfense motions had been filed with the Court, .despite valid
defense issues. On October 18

2007, Petitioner entered a

guilty plea on advise of counsel.
In January 2008, Petitioner moved to withdraw his plea
rro Se, citing ineffective assistance of counsel regarding the
entry of his guilty plea. In February 2008, the District Court
had ruled on, and denied, the motion while Petitioner was
without counsel even appointed to his case. At sentencing,
attorney #4 entered an improvised oral Motion to Withdraw
Plea. However, as counsel was unprepared due to "reported"
health issues

the motion was denied.

Petitioner was represented by a fifth attorney on Direct
Appeal. Attorney #5 did not raise any of Petitioners requested
(valid) issues in the Appellate Court, but had instead raised
"two claims, that are foreclosed by Supreme Court precedent."

1

Ml
Re: United States v
• Barnett / Casp No. 3:06-cr-599

At the 08-22-08 meeting, Mr. Breckenfelder
went on to
state that the reason(s) that he had
not filed any motions
with the Court was Because that he had been
experiencing
recent health and financial issues that
were taking up much of
his time (* see Atty. Breckenfelder
s 12-05-08 letter to the
8th Circuit Court of
Appeals). Additionally, he stated that he
would raise the plea withdrawal
issues at the scheduled
09-19-08 Sentencing hearing.
{On September 1 q

2008

the U.S- District Court held

;the First Sentencing hearing., At that time Mr.
Breckenfelder
.improvised an oral Motion to Withdraw
Plea. However, as
Mr. Breckenfelder was
unprepared, the Court denied the oral
motion, commenting that " we are here for
sentencing," and
moved on to.the sentencing issues.
<At that time the Cnn-rt- asked Mr.
Breckenfelder if he
thad reviewed the amended PSP with
me (the defendant) ,c. to which
tMr. Breckenfelder stated that he had
not. The Judge (John A.
Jarvey) became visibly
upset, and ordered that the Sentencing
hearing be rescheduled for 10-01-08.
The-Judge additionally
ordered that Mr. Breckenfelder review the
amended PSR with me,
and that he prepare for
sentencing. The Judge then threw down
his gavel and quickly departed
the Courtroom.
On September 30. 2008, (the night before t-h^
2nd
Sentencing hearing), Mr. Breckenf el rW
came to the Muscatine
Co. jail to speak to me about the PSR.

17

hit

Re: United States v. Barnett / Case No. 3:06-cr-599

On October 1, 2008, the U.S. District Court held the\
Second Sentencing hearing-.. At that time the Court appointed
the 5th attorney to my case, Murray w. Bell, Mr. Bell

who is

also an independent attorney, was appointed to my case under
C.J.A. to assist Mr. Breckenfelder as co-counsel, due to Mr.
Breckenfelder's reported health issues. The Court, however,
did not ask if attorney Breckenfelder had reviewed the PSR
with me, or if' he had prepared for this hearing.
During the Second Sentencing hearing, neither defense
attorney Breckenfelder, nor attorney Bell, raised objections
to mistakes in the PSR which had incorrectly calculated my
criminal history sentencing points. I had just brought these
PSR mistakes to Mr. Breckenfelder's attention the night before
when he had visited me at the Muscatine Co. jail. 'As defense
counsel failed to object to the mistakes contained in the PSR,
T was subjected to, and sentenced to, a higher sentencing
-range than I should have

had counsel brought the PSR mistakes

\to the attention of the Court.
At the conclusion of the Sentencing hearing I advised
Mr. Breckenfelder that I wanted to appeal. Mr. Breckenfelder
assured me that he would file the Notice of Appeal within the
deadline (10 days). That was the last that I had heard from
Mr. Breckenfelder. On October 9, 2008

I filed a Pro Se Notice

of Appeal to preserve my right to appeal.

18

AIS

Re: United States v. Barnett / Case No. 3:06-cr-599

Although Mr. Breckenfeider had been appointed to the'-)
case for 8 months-. (02-11-08 to 10-01-08) , he had not prepared
/ filed the Formal Motion to Withdraw Plea that I had
requested that he file, had not subpoenaed the exculpatory
account records that I had requested, did not review the\
'amended PSR with me until the night before the 2nd- Sentencing)
shearing, and failed to object to mistakes in the PSR (criminal
vhistory) that were used to enhance my sentence.

Additionally, where Mr. Breckenfelder had abandoned
the case, I had to file a Pro Se Notice of Appeal when Mr.
Breckenfelder had failed to do so. At that point, he had also
ceased all communication with me. Over the course of those
8 months that Mr. Breckenfelder was appointed to my case, the
case record is also devoid of any defense action other than
requesting multiple continuances.

19

AlH

Re: United States v. Barnett / Case No. 3:06-cr-599

^Between January and April 2009 I sent letters to\
^Mr. Bell asking that he raise the following- issues in the
Appellate Court on Direct Appeals

a) I had been denied the Sixth Amendment right to effective
assistance of counsel on plea withdrawal issues

where:

1) the District Court had ruled on my Pro Se Motion to
Withdraw Plea while I was without counsel (02-11-08),
2) Mr. Breckenfelder had not.prepared a Formal Motion to
Withdraw Plea, but only improvised an unprepared oral
Motion to Withdraw Plea at sentencing (09-19-08).

b) The Motion to Withdraw Plea was based upon the following:

1) Ineffective assistance of counsel prior to entry of
guilty plea

*(multiple attorney abandonment),

2) Plea was unknowing where I (defendant)
was under the
mistaken impression that I could raise speedy trial
and evidence challenge issues in the Appellate Court
after entering a guilty plea, and,
3) Franks challenge to the evidence seized where the
Davenport Police officers had misled the State Judge
bY including false information in the search warrant
affidavit.

21

h\5

Re: United States v. Barnett / Case No.
3:06-cr-599
Cc)‘ <T had been denied the Sixth Amendment right
to effective
^assistance of counse1
at sentencing, where"defense counsel'
^failed to object to miscalculations in of criminal
history
^points in the PSR. and I was therefore
sentenced within
ia higher sentencing range.-

\*""United States v. Barnett, 574 F. 3d 600, C603 (8th Cir.
2009)
"a district court should begin all sentencing proceedings
by correctly calculating the applicable Guidelines
range."
** Note: On February 6, 2009, Mr. Bell had sent
a letter to me
telling me to make a collect attorney phone call his
office on
02-12-09 at 4:30 P.M. Central Standard Time to discuss
appeal
issues. I called at the designated time
but my call was not
accepted. On February 23, 2009

Mr. Bell sent another letter

that stated that he would NOT accept a phone call,
as the
"phone system no longer provides a reliable or confidential
means of communication."

(Why not ??)

On March 23. 2009, Mr.
Bell filed the Appellant Brief
for Direct Appeal. On March 24,
2009, Mr. Bell filed a Motion
for Limited Remand, asking that the case be sent back to the
evidentiary hearing on ineffective

22

Kit

Re: United States v. Barnett / Case No. 3:06-cr-599

rOn April 1

2009,

Mr. Bell sent a letter'to me stating-

that he would not be able to raise ineffective assistance
of
’.counsel issues because he may be a witness- (He sat in as on
"counsel at the 10-m-ns Sentencing hearing). Actually Mr.
Bell
could NOT raise ineffective assistance of counsel issues
regarding the failure of counsel to object to miscalculation
of criminal history in the PSR, because he acted
as co-counsel
at sentencing, To do so he would have to raise ineffective
assistance of counsel claims against himself!!!
On April.13, 2009, the 8th Circuit Court of
Appeals
denied Mr. Bell's Motion for Limited
Remand. On May 19, the
Government filed its Appellee'Brief. During March, April, and
May 2009, I sent multiple letters to Mr. Beil
requesting that
—e send me a copy of the Appellant Brief. so that I could
verify that he had raised the .issues that I asked that he
address in the Appel
Court.
On May 27, 2009, I sent a letter to the 8th rirmitCourt of Appeals complaining of _a lack of communication with
my appointed attorney and requested that the Court of Appeals
send me a copy of the Appellant Brief that
Mr. Bell had filed,
as Mr. Bell had repeatedly ignored
my request for a copy of
the Brief. Additionally, I requested that
the Court of Appeals
take Formal notice of an ongoing lack of adequate
communication between me -(-the defendant) and Court
appointed
counsel.

23

A/7

Re: United Staten v. Barnett / Case No. 3:06-cr-599

On June 12, 2009, the case was submitted to the
Appellate Court Panel for decision on the briefs without oral
argument. On June 18, 2009 I received a copy of the Appellant
Brief from the 8th Circuit Court of Appeals . <After~-review 'of
'Mr • ~Be 11"1 ~s~~AppelTant Brief

~1"'had'round-that he had not raised^

^ANY of the issueVthat i requested" thatTlie-addressTThmie
^Appellate Courtl As the case had already been submitted to the
Panel, I could not submit an Appellant Brief Supplement.

**^Notel Mr. Bell raised two issues in the Appellate Court:
1) The District Court abused its discretion in utilizing
the U.S. Sentencing Guidelines,
2) The Sentence imposed by the District Court was
unreasonable.

On July 28. 2009, the 8th Circuit Court of
Appeals had
filed its deci.sipn, Affirming the original judgement of the
District Court. In-its decision, the Appellate Court noted

that E-B5T1 ■beqan-HlrT^riacr^miiiSnEs^W^iiemj^-wS.
’clalmsTthah —re—£o.reclosed by Supreme, Court precedent 1"

<5? United States v. Barnett,
574 F.3d 600, Sfi02 (8th Cir. 2009)

24

m
Re: United States v. Barnett / Case No. 3:06-cr-599

At this time I am preparing an 2.8 U.S.C. § 2255 motion
based upon the forgoing information. In such

I am addressing

each of the individual merits of the following:

violation of the Sixth Amendment right tcTthe Effective^
^Assistance of Counsel where)

a) The first two defense attorneys appointed to the case
(both from the F.P.D. office) had not conducted any
significant investigation into the case in the entire
4 1/2 months that they were appointed to the case.
Further, they had abandoned the case without prior
notice to me

or leave of the Court.

b) An actual conflict of interest had developed between me
(the defendant) and the F.P.D. s office, where multiple
appointed attorneys from the F.P.D. office had
abandoned my case

then refused to address speedy trial

violations caused by neglect and abandonment of the
case by their own F.P.D. office.

c) In the 1 year leading up to my trial date,
the F.P.D.
attorneys refused to file ANY defense motions in my
case regarding valid Discovery, Evidence Suppression
Speedy Trial, and Multiplicity issues.

27

All

Re: United States v. Barnett / Case No.
3 : 06-cr-599

d) Less than one week before■my trial date F.P.D.
attorney
No. 3 advised me that
exculpatory account records had
not been subpoenaed, important defense witnesses were
not called that she did not challenge evidence
issues
for suppression, and that my case was
"unwinnable" if I
were to proceed to trial.

e) Not only did F.P.d. attorney No. 3 advise me to enter
guilty pleas to Multiplicitous charges based upon the
same acts, she also advised that I stipulate to
sentencing enhancing facts that were not even charged
in the indictment.

f) Prior to the entry of the guilty plea

F.P.d. attorney
No. 3 led me to believe that
I could challenge Evidence

Suppression and Speedy Trial violation issues in the
Appellate Court after entry of a guilty plea, even
though counsel had not first raised any of the issues
in the District Court.

g) I was without representation when the District
Court
ruled on / denied my 01-16-08 Motion to Withdraw
Plea.
Additionally, attorney No. 4 failed to adequately
prepare, file

and represent me in a Formal Motion to
Withdraw Plea before the District Court.

28

Re: United States v. Barnett / Case No. 3:06-cr-599

Ch? ^t the__Sentenciliq~~Keariiiqr

both attorney _ No ■_~~4T~ahd')

ratt5rneV-NoT -5T^-faTled to -oH^~t^u^ta^-fn the
^Fimina 1. hist^^inE^anaTiWm^Tn^ in.the
FSR> ^ was therefore"subTected to a higheriTSentencTng
^^eq.IFiF;.r:anqi7~^~sentincea~accoraxngIv^

i) On Direct Appeal attorney No. 4 abandoned the case due
to claimed health and financial reasons.

© fQ? Direct" Appeal at-torhe^Nd7-5^faTled^tFraThe^i^TTd
^issued concerning? abandonment of counsel, ineffective
assistance of counsel, denial of counsel concerning
plea withdrawal, and ^mpTOp¥FFiXculi±iFFFf~h~enfences
Rather, he raised frivolous issues of his own personal
agenda, concerning the Unconstitutionality of the
Federal Sentencing laws.
Additionally, attorney No. 5 did not even have full
access to all case related documents (Davenport P.D.
report No. 06-24081) in order to properly review the
facts of the case to adequately prepare issues for
Appeal.

29-

Ml
Re: United States v. Barnett / Case. No.
3:06-cr-599
^ -vi"o!^fi bnJoQj^mt-FT5nena me^
~to Due Process
^~) ^UespTte'mont'hs

- of preparationTjrnp- Counsel failed to*
^Me5t-to a~mrscadcUi-atT6n~~0T'~Cr~ini~iTTa"l'''"Hi:qtnr:\7-p?TT~r1'Fa

Contained 'within "the Presentenc'e"Report""(P'SR)•. <At'~rHe
Second S en t encAhg "hear1 nd"in
Ted E. Breckenfelder"

case, Attorney #41

and~AtI:brhey _l571!urrarW7~BeID

dpoth failed_bo_ obj ect~ to~ the miscalculatidrT~of thel
^CriminaT History"poTnts i

resul t ing' the _ def endant beiiiq

■subjected to —■ higher sentence, Xased, upofnOiiqher>
^Sentencing Guidelines range.
The Defendant s 09 12 08

(Final) Presentence Report
contains the following miscalculation of Criminal
History points:

^Paragraph 4 6) - States that 2 pts. were assessed
pursuant to U.S.S.G. 4Al.l(b), regarding Iowa State
Case No. FECR265568.
However, Defendant served only 33 days of a 120
day sentence as the court suspended the balance
of
the sentence.
(* Arrest date 01-09-04 to release date 02-11-04.)
4A1.2 (bj (2) states that if part of a sentence
was
suspended, the "sentence of imprisonment" refers
ONLY to the portion that was NOT suspended.
■~s

67

m
Re : United States v. Barnett / Case No.
3:06-cr-599

\'a)~

1 <Tcont.) Based

upon U.S.S.G. 4Al.l(c), the defendant

should have only been assessed 1 point for Iowa Case
No. FECR265568.

^Paragraph 4 a

States that 1 point was assessed

pursuant to U.S.S.G. 4A1. l {cf---regarding Iowa State
Case No. SMCR289024.
U.S.S.G. 4A1.2(c)(1)

states that "Disorderly

Conduct" and " Trespassing" are only counted if:
the
sentence was a term of probation of MORE than
one
year, OR a term of imprisonment of
at least 30,days.
(4A1.2(c) (1) (A) ) .
U.S.S.G. 4A1.2(c)(2)

states that sentences for

"Public Intoxication" are NEVER counted.
However, the total sentence for Iowa Case No.
SMCR289024 was 6 months probation,
no jail time, and
a $150 fine. Therefore, NO points should have
been
assigned for Iowa Case No. SMCR289024.

*

(It should be noted that although defendant
was
subject to a 30 day sentence upon violation of
probation of SMCR289024,

the case was concluded

in December 2006 without any revocation of
probation.)

68

m
Re: United States v. Barnett / Case No. 3:06-cr-599

ULI ^cont- )' In 2005

the U.S. Supreme Court determined that

the United States Sentencing Guidelines (U.S.S.G.) are
to be considered by sentencing Courts as "advisory"
when considering the determination of a sentence.
United States v. Booker, 543 U.S. 220 (2005).
However, ^he Supreme Court has mandated that the
court should becfin all sentencing proceeding's
iby correctly calculating the appl i rv,hl „ Guidelines
"range. See United States v. Barnett, 574 F.3d 600,\603
(8th Cir. 2009).
"A defendant has a constitutional due process right
not to be sentenced on the basis of either invalid
information or groundless inferences drawn from
otherwise valid information... This would be true even
in the absence of the sentencing guidelines, but the
structure of the guidelines heightens this concern."
United States v. Landry, 709 F. Supp. 908, 912 (Minn.
1989) .
Ulere, the addition of the miscalculated Criminal
'History points listed in PSR paragraphs 46 + 49 pushed
>the defendant from 11 points to 13 points, resulting in
the defendant ——Criminal History Category being raised
from level V to level VI (u.s.s.G. Sentencing Table).
This in turn moved the defendant s Sentencing Guideline
range from 210-262 months, to 235-293 months.

69

m
Re: United States v. Barnett / Cass Wn

3 : 06-cr-59.9

SiQ TconO) ^Because of counsel ' s ~f afTTfre
'to obiecf^to^Th^
Cmi~scarculation of "the "defendant'1 s Criminal History .
^points within~ the PSR) ~the~.defendant was 'subTected'“to>
^^KigRer"sentence ~at~~t'Ke~T0 01 08 Sentencing hearings
Counsel's failure to object to the miscalculation of
the Criminal History points was unreasonable where it
was not based upon reasonable trial strategy, .and the
defendant was prejudiced by counsel
s performance by
being subjected to a higher sentencing range.
In March 2010, I filed a Pro Se Motion to Correct
Presentence Report with the District Court (Doc. #115),
requesting that the Court allow the U.S. Probation to
correct the miscalculation o.f Criminal History points
in the PSR
my BOP
level. The miscalculation
of Criminal History points in the PSR has also in turn
incorrectly placed me at a Maximum Security United
States Penitentiary (Tucson U.S.P.).
Although the Government did address the merits of
the miscalculation issues that I had raised, the motion
was dismissed for lack of jurisdiction, where I was
attacking the execution of the sentence, as opposed to
the sentence
<of due process ^Tioiatioh and jneffecFi ue
^Pf counsel in this'§2255 motioh>

70

assistanceY

MS

Re: United States v. Barnett / C3RP No. 3:06-cr-599

A Violation Of Rule 32 Federal Rules of Criminal
Procedure
Rule 3 2 (i) (i) (a), Fed. R- Crim.
P-, provides that at
sentencing, the Court-must verify that the defendant and the
defendant 1s attorne have read and discussed the
resentence
report and any addendum to the
report. At the First Sentencing
hearing in this case (09-19-08) the Court had
learned that
counsel had not met with defendant to discuss the final draft
of the PSR, and therefore had to order that sentencing be
continued (09-19-08 Tr. / Pg.2: 9-20 / Pg.20: 6-11) .
At the Second Sentencing hearing (10-01-08)

the Court had
failed to determine if counsel had read or discussed the PSR
final draft with defendant since the First Sentencing hearing.
The Court conducted the Second Sentencing hearing under the
defacto assumption that counsel had performed his duties.

il. "Despite the fact that the First Sentencing hearing had to be
-continued because of counsel's negli ence
Mr. Breckenfelder
did not discuss the PSR final draft with
me until 09-30-08
(the night before the Second
Sentencing hearing). At that time
Mr. Breckenfelder only briefly discussed
the final draft of
the PSR. -Counsel therefore d-iti not have sufficient time
to
properly prepare his
argument concerning the miscalculation of
the Criminal History points in the PSR for the Second
Sentencing hearing.

90

hl(>

Re: United States v. Barnett / Case No. 3:06-cr-599

S~*;Attorney Breckenfelder's

apparent confusion concerning the

ULiscaiculation of the Criminal History points is clearly shown'
vin the record of the case.

\* (£9-19-08 Tr. / Pg.2: 9-20 / Pg.3: 7-23 / Pg.16: 24-25 /
Pg■17 / Pg.18: 1-17)
* (10-01-08 Tr.

/ Pg.2: 3-20 / Pg.23: 21-25 / Pg.24:

1-19).

Collateral relief from a violation of Rule 32 is available
"only when the defendant is prejudiced by the Court's error."
Peguero v. United States, 526 U.S. 23,
case

27

(1999).Vin this

Petitioner's substantial rights were affected where his

'sentence was based upon an unob~iected to miscalculation of
'(Criminal History points, which in turn subjected Petitioner to
ia higher Guidelines sentencing range ■ (Criminal History
Catagory VI,' rather than the correct Category V)
Because the Court did not determine pursuant to Rule 32
(i)(1)(A)

that Petitioner had read or discussed the amended

PSR with counsel, Petitioner is entitled to resentencing on
grounds separate and apart from the IAC issues. Whether or not
counsel were ineffective, Petitioner respectfully submits that
the Court had and independent duty to satisfy itself that
Petitioner and counsel had read and discussed the PSR. \The
^sentencing issues in this case affect the fairness,
yand public reputation of the proceedings.

91

integrity,

kV

Re: United States v. Barnett / Case No. 3 :.06-cr-599

\RELIEF SOUGHT)

k&y That the Court order the United States Attorney to file an .
answer within the time period fixed by the Court that responds
to the merits of all allegations of the motion, pursuant to
Rules 4 and 5 of the Rules Governing Section 2255
■

Proceedings;

o

^vb) That the Court grant Petitioner leave to invoke the
process
of discovery available under the Federal Rules of Criminal
Procedure and the Federal Rules of Civil Procedure and
elsewhere in the usages and principles of law

pursuant to

Rule 6 of the Rules Governing Section 2255 Proceedings, as
follows:

1) That at the time the Court orders the U.S. Attorney to
file an answer

it also issues an order directing that

within 21 days Petitioner describe, file and serve his
request for the discovery process he wishes the Court to
authorize, with proposed orders;

2) That the Court, on a showing of good cause, grant leave
for Petitioner to describe, file and serve Supplemental
Discovery Requests as may later appear reasonably
necessary;

92

hn

Re: United States v. Barnett / Case No. 3:06-cr-599

3) That at the time the Court orders the U.S. Attorney to
file and answer, it also grants Petitioner an opportunity
to Subpoena the Internet Account records that were involved
in this case (Factual Basis / Interstate Commerce).
* Quest Communications / America Online (AOL);

c) That the Court direct that the record be expanded by
inclusion of additional material relevant to the determination
of the merits of the motion, including the exhibits and
declarations filed with the motion and additional material
obtained through discovery on the motion, pursuant to Rule 7
of the Rules Governing Section 2255 Proceedings;

ill SThat the Court consider the merits of this motion under a
Cliberal standard as Petitioner is not a Professional attorney,
i-kut is rather an untrained layman with no prior experience
vpracticing law;

e) That the Court grant Petitioner

Tracy Alan Barnett, an

evidentiary hearing pursuant to Rule 8 of the Rules Governing
Section 2255 Proceedings;

f) That the Court order appointment of Counsel to Petitioner,
so that he may be adequately represented on.the issues raised
in this §2255 motion;

93

m
Re: United States v
• Barnett / Casp No.' 3 : 06-cr-5'99
g) That, as set fourth above, the Court vacate and
set the
judgement aside and discharge or,
in the alternative,
resentence him or grant a new trial
or correct the sentence as
the appropriate, pursuant to 28 U.S.C. §2255;

® <Thah~TKe Court grant'Vi 1 rhihPf
to which, he_ may , be >
<ven£TtledT

^PetTtToner,' Tracy,..Alan Barnett'',"
respectfully. regue¥ts~a^
shearing wjth evidence taken oh^hhp
issues raised hereim The
violation of the fundamental rights require that the
Court
vacate Barnett s pleas and convictions,
restoring him to his
pre-plea position.

94

Re: United States v. Barnett / Case No.

3:06-cr-599

(CERTIFICATE OF SERVICE3

I, Tracy A. Barnett, Petitioner Pro Se, hereby certify
that I have.served a copy of Petitioner
s Motion to Vacate,
Set Aside, or Correct Sentence
upon the United States District

pursuant to 28 U.S.C.

§2255

Court / Southern District of

Iowa / Davenport Division.
Petitioner s §2255 Motion is deemed filed
at the time it
was delivered to prison authorities
Court. Houston v. hack,

for forwarding to the

101 L.Ed. 2d 245

(1988); Rules Gov.

§2255

Rule 3(d). Petitioner files with the
Court the original
28 U.S.C. §2255 Motion,
and 2 copies) as required by R. Gov.
Sec. 2255, Rule 3(a).
Additionally, Petitioner also provides 1
copy of Petitioner 's Memorandum in Support of the
§2255 Motion
as he is indigent and
cannot pay copy fees for additional
copies of the Memorandum.
This Motion is timely

as it is filed within the 1-year

time limitation of 28 U.S.C.
denied certiorari

§2255 (f)

(The U.S. Supreme Court

on November 3.0, 2009) .

I certify under

penalty of perjury that the forgoing is true and
correct
pursuant to 28 U.S.C. §1746.

Respectfully submitted,

Date

/

Trac

A. Barnett

Petitioner / Pro Se

Al
v Case 4:1 Q-cv-00593-JAJ Document 7'• Filed 01 /06/11

Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION
TRACY ALAN BARNETT,
Petitioner,

No. 4:10-CV-00593-JAJ

vs.
UNITED STATES OF AMERICA,
\ ORDER'

Respondent.

TThis matter comes before the court pursuant to the petitioner’s December 14 ,20107
. Motion under 28 U.S.C. § 2255 to Vacate, Set Aside or Correct of Sentence. Pursuant
to Rule 4 of the Rules Governing Section 2255 Proceedings, the court conducts the
following initial review to determine whether there are issues of arguable merit that should
proceed. The court finds that none of the issues in the petition present arguable § 2255
claims. \The petition is dismissed.
I. Procedural History
This case was commenced by way of a criminal complaint on November 9, 2006,
charging possession of child pornography.
On November 15, 2006, a one count
indictment with a forfeiture count was returned by the grand jury. On April 10, 2007, a
superseding indictment was filed charging the petitioner in Count 1 with possession of
child pornography and in Count'2 with receipt of child pornography. Count 3 contained
a forfeiture count. United States v. Tracy Barnett.-3:06cr0599 OS D. Iowa) at Dkt. 24,
Between his initial appearance and the ultimate trial date of October 22,- 2007, the
petitioner requested six continuances. These continuances were based in part on changes
in personnel in the Federal Public Defender’s Office. In addition, there were delays
associated with the forensic evaluations of the computer at issue.
^ On October_19, 2007, the petitioner appeared before the court and entered guilty
pleas to Counts 1 and 2 of the superseding indictment. [Dkt. 47] Three months later, the

*

M0i]
.- Ho. 2-06 - d r- SM
hoc, Uo. V7 ¥Sy 46,

-1-

hzt
Case 4:10-cv-00593-JAJ

Document 7

Filed 01/06/11

Page2of7

petitioner filed an elaborate pro se motion to withdraw his guilty pleas. [Dkt. 48] His
attorney then moved to withdraw. [Dkt. 50] The court granted his attorney’s-motion to
withdraw on February 4, 2008. [Dkt. 52] This court denied his pro se motion to withdraw
his guilty pleas on February 11, 2008. [Dkt. 53]
Sentencing was initially set for September 19, 2008.

However, because the
presentence report was not timely disclosed, sentencing was continued at the petitioner’s
request. The court also heard and denied the petitioner’s second motion to withdraw his
guilty pleas. [Dkt. 72]
Sentencing was reset for October 1, 2008. Petitioner faced a mandatory minimum
term of incarceration of at least fifteen years.

The advisory Sentencing Guidelines

suggested a sentence between 235 and 293 months. The petitioner received a sentence of
240 months on each count to run concurrently. [Dkt. 79] The petitioner appealed and his
conviction and sentence was affirmed by the Eighth Circuit Court of Appeals. On appeal,
he raised issues concerning reliance on the United States Sentencing Guidelines. He also
claimed that the court treated the Guidelines as mandatory, rather than advisory. Finally,
he claimed that his sentence was unreasonable. He did not appeal the denial of his motions
to withdraw his guilty pleas.
The transcript of petitioner’s guilty plea can be found at Docket Number 74. At the
time of his plea and under oath, petitioner admitted being fully familiar with the charges
against him, having discussed those charges and the evidence in the case with his lawyer
and being “fully satisfied” with the counsel, representation and advice given to him in this'
matter by his attorney, Ms. Zitzner. [Dkt. 74, Tr. 4] The only plea agreement involved
in the case was the government’s agreement not to object to a two level downward
adjustment for acceptance of responsibility.

Other than that promise, the petitioner

admitted that no other promises had been made. [Tr. 5] Petitioner was advised of the
charges against him, the elements of the offense and the maximum and minimum
punishment involved. The factual basis was contained in a seven page stipulation of facts
that the petitioner understood and agreed to. [Tr. 8] Petitioner admitted that he understood
that he could not withdraw his guilty plea just because he disagreed with the presentence
report or the sentence that he received. [Tr. 15] Finally, the petitioner understood that by
entering pleas of guilty that he waived or gave up all the rights to a trial that the court had
earlier described to him. The court then stated, “There will be no more hearings on these

* Oriijiml

PSR Stiff- f» Sfiifa/icfity

~~ Mr Srvch’nff/Jrr- h&i tjf

t Hr,

fSg

prle>i- to f/w
Menj js ikff "nof- M/iiefy J&cbsrJ 45

<?//

S^z tyc/itfiS (gmrhr-of c\
.

42>2>
Case 4:10-cv-00593-JAJ Document 7

Filed 01/06/11

Page 3 of 7

charges except those necessary to determine your punishment. Do you understand that? ”
To which the petitioner responded, “Yes”. [Tr. 16] The petitioner told the court that his
decision to plead guilty was a voluntary decision and that the decision was in his best
interest. [Tr. 17]

H. The § 2255 Petition
'petitioner makes eight claims in support of his § 2255 petition.^Fnstj he claims he
received ineffective assistance of counsel by reason of the fact that he was on his third
assistant federal public defender at the time he pleaded guilty. He further alleges that they
rendered ineffective assistance by failing to file motions for discovery,, to suppress
evidence or to allege that receipt and possession of child pornography cannot be charged
in the same indictment. Finally, he alleges'that they were ineffective for failing to
subpoena records showing that his former girlfriend, the complainant, had used.her
daughter s name to set up the internet account that was ultimately used to download child
pornography. He calls this identity theft.
^Second, he claims that his Sixth Amendment right to conflict free counsel was
violated by having three lawyers who he believes abandoned his case. He also claims the
conflict arose from their refusal to file motions that he wanted to have filed. He has not
demonstrated that any such motions would have been successful. Further, he claims that
his right to a speedy trial was violated. CFoiirth, petitioner makes Fourth Amendment
arguments concerning the search warrant utilized in this case. He makes a Franks v.
Delaware argument and argues that the warrant lacked probable cause and that the police
cannot establish a chain of custody for some of the evidence they seized.
^Pifih,

petitioner makes due process arguments concerning his sentencing and

alleged prosecutorial misconduct. He contends that the court miscalculated his criminal
history points and-that the prosecutor withheld evidence showing that the complainant in
this case used her daughter’s name to set up the internet account described above. CSixthfor all the reasons set forth above, the petitioner claims that his plea of guilty was not a
knowing and voluntary plea. According to the petitioner, he would, not have entered a plea

hfe : 7%e CtH'rf skiffteJ frefri fhf 2?^ la fin
— Thv

Ocvrf

fkltf/ hr flDrrss
-3-

dlmtj. ^

/affleaf d/ptM? [}$),())*5($}.

Case 4:10-cv-00593-JAJ

Document 7

Filed 01/06/11

Page 4 of 7

of guilty had he known of the alleged ineffective assistance of counsel.
Seventh, he contends that he was denied counsel by the alleged Federal Public
Defender’s abandonment of his case and by the fact that the court ruled on his pro se
motion to withdraw guilty pleas without the benefit of counsel. Finally, petitioner alleges
a violation of Federal Rule of Civil Procedure 32 because the first sentencing hearing was
set with insufficient time to review the presentence report.
*

The petitioner was aware of every situation that he now claims constitutes
ineffective assistance, prior to the time he pled guilty. In his pro se motion to withdraw
his guilty pleas, filed January 22, 2008 [Dkt. 48], the petitioner gave a long chronology
of the events leading up to his decision to plead guilty. In it, he discusses at length how
he talked to his attorneys prior to the guilty plea about their failure to file discovery
motions, a speedy trial motion, their failure to contact defense witnesses, their failure to
object to the superseding indictment’s addition of the receiving child pornography charge.
He indicates at page five of that document that the Federal Public Defender’s investigator
had contacted the complainant and it describes that contact. Then it describes his decision
to plead guilty. He stated that his defense attorney called the case unwinnable and that
the defense witnesses that had been contacted would not be helpful. He stated that prior
to pleading guilty, he asked his attorney why she had not filed motions challenging the
evidence that was presented to the grand jury or that which had been secured from the
search warrant. On page eight of the document, he mentions the failure to issue subpoenas
and take depositions. Finally, he categorized the claims as violations of due process,
speedy trial, compulsory process, effective assistance of counsel, and equal protection.
HI. Conclusions of Law
Title 28, of the United'States Code, section 2255, provides as follows:
A prisoner in custody under sentence of a court established by
Act of Congress claiming the right to be released upon the
ground (1) that the sentence was imposed in violation of the
Constitution or laws of the United States, or (2) that the court
was without jurisdiction to impose such sentence, or (3) that
the sentence was in excess of the maximum authorized by law,
or (4) is otherwise subject to collateral attack, may move the
court which imposed the sentence to vacate, set aside or
correct the sentence.
28 U.S.C. § 2255. Section 2255 does not provide a remedy for “all claimed errors in
-4-

f wW ftboi'h zetihacbty/fiffeai £5%*. rcvW
[Umis 1 (h), (j) i 6(c\l thi occurrfid ufkh

/Iss
■

Case 4:10-cv-00593-JAJ

Document 7

Filed 01/06/11

Page 5 of 7

conviction and sentencing.” United State v. Adrionizin 442 U.S. 178, 185,(1979).
Rather, § 2255 is intended to redress only “fundamental defect[s] which inherently [result]
in a complete miscarriage of justice” and “omission[s] inconsistent with the rudimentary
demands of fair procedure.” Hill v. United States. 368 U.S. 424, 428 (1962); see also
United States v. Apfel, 97 F.3d 1074, 1076 (8th Cir. 1996) (“Relief under 28 U.S.C. §
2255 is reserved for transgressions of constitutional rights and for a narrow range of
injuries that could not have been raised for the first time on direct appeal and, if
uncorrected, would result in a complete miscarriage of justice.”) (citing Poor Thunder v.
United States. 810 F.2d 817, 821 (8th Cir. 1987)). A § 2255 claim is a collateral
challenge and not interchangeable for a direct appeal, see United States v. Fradv. 456 U.S.
152, 165 (1982), and an error that could be reversed on direct appeal “will not necessarily
support a collateral attack on a final judgment. ” Id.
This case is very similar to Nguyen v. United States. 114 F.3d 699 (8th Cir. 1997).
In it, the district court denied a similar § 2255 proceeding without a hearing, ruling that
the petitioner’s guilty plea was knowing and well-advised. In Nguyen, the petitioner
argued that he received ineffective assistance of counsel because his lawyer was not
adequately prepared for trial, did not prepare the petitioner to testify, did not hire experts,
neglected to interview important witnesses and it resulted in the petitioner feeling coerced
into pleading guilty. The Eighth Circuit Court of Appeals stated: “Nguyen’s belated claim
that his counsel had not represented him effectively is flatly contradicted by his
contemporaneous statements at the plea hearing that he was “satisfied with the
representation [he had] received” and that he “believed” that his counsel had “been a good
lawyer”. M. at 704. Nguyen further argued that the government had failed to produce
exculpatory evidence but the court noted that that exculpatory evidence was equally
available to the petitioner and that the petitioner’s own statements at the guilty plea
proceeding fully established his factual guilt.

Id. at 705.

See also United States v.

Murphy, 572 F.3d 563, 569 (8th Cir. 2009) (Defendant’s failure to assert any objection to
counsel’s performance at the change of plea hearing, despite his knowledge of the
availability of a defense, refutes any claim of ineffective assistance of counsel as a basis
for withdrawing his guilty plea.); United States v. Hughes. 16 F.3d 949, 951 (8th Cir.
1994) (same).
*

CEaclTdf the petitioner’s ineffective assistance of counsel claims can be summarily
-5-

A%
Case 4:.10-cv-00593-JAJ

Document7

Filed 01/06/11

Page 6 of 7

£ Selected by the fact that the petitioner testified under oath that he was fully satisfied with
The counsel, representation and advice of his attorney at the time that he pled guilty. Had
he indicated otherwise, the court would have examined each claim with him and permitted
any appropriate continuance necessary to rectify any justified dissatisfaction with counsel.
Petitioner waived his right to bring a speedy trial motion, a double jeopardy motion,
and his belated suppression motion by reason of his plea of guilty. Prior to pleading
guilty, the petitioner indicated he was aware of this. The court asked if he understood
there would be no more proceedings in his case other than those necessary to impose
punishment. The petitioner responded in the affirmative.
^The petitioner could have appealed his Sentencing Guideline calculation but did not>
He now argues that, under the Sentencing Guidelines, he should have had a total offense
level of 33 and a criminal history category of V as opposed to VI.
imposed (240 months) fell within the range associated with a total offense level of 33 and
va criminal history category of V. The Guideline calculation was only one of the 18 U.S.C.
§ 3553(a) factors considered at the time of sentencing. This alleged error in the calculation '
vof the Sentencing Guidelines had no impact on his sentence.'
The transcript of the petitioner’s guilty pleas hearing demonstrates that his plea was
knowing and voluntarily entered. In fact, the petitioner does not allege any instance in
which the court violated Rule 11 or failed to ensure that the plea was knowing and
voluntary. He acknowledges that his testimony under oath that day supported the guilty
pleas but suggests that he should not be bound by that testimony. However, he gives no
persuasive reason to disregard that testimony.
Petitioner’s “denial of counsel” argument presents no arguable issues to go forward.
He was not entitled to be represented by the same attorney throughout his proceedings.
His argument concerning this court’s February 11, 2008, ruling denying his motion to
withdraw the guilty plea is confusing. He intentionally filed the motion pro se, meaning
.without the benefit of counsel. He was not entitled to. file motions pro se and then have
his attorney argue them. He renewed his motion to withdraw his guilty plea on September
19, 2008, with the benefit of counsel. That motion was also rejected and he did not appeal
either ruling. Finally, his argument concerning a violation of Rule 32 is frivolous. The
final draft of the presentence report had not been disclosed more than ten days prior to
when sentencing was originally set. Upon being notified of that fact, the court continued
■)f Af^n i toW
re<jc\ntihq
s<?nkticiHj/(\pfelkfe towse/

-65(*)]

io 5 M&dk
■the
c? H# forr&f "
iff? ' 2ss mc/iiit nw/1 » See
i7, -2&Z-, faa'mtf
prvitl

-PrvM/irl offtty.

/is?
Case 4:10-cv-00593-JAJ

Document 7

Filed 01/06/11 ' Page 7 of 7

the sentencing until October 1, 2008, and gave the petitioner more than ten days to prepare
for sentencing.
Upon the foregoing, .
• friS ORDEREDlhat the__petitionefrh petition'pursuanfTo 'IS C.S.C. ■? 22551s U
Cdismissedin .its entirety; The clerk shall enter judgment accordingly.
• DATED this 6th day of January, 2011.

J
jqfHNlA. JARTSY
UT
ED STATISJijSTRlCTTTJDGE
SOUTHERN DISTRICT OF IOWA

federal pules

Ctvt I Procedure * /fa fe

(P) provides 2

folny oder or other decision. however d&iijhatedt
djlti'cct tes pewr /Jim/ Si the 6 Li///?£...
Jd£s Met end die toritrn C(s h fljjj/ of the ckim #r
fkrtifS md ffley
n? vised at Any tfMr
Me
enty op
idjadimi/y
the a/cm/sP*
>>

fi/Aere Me 2>/oPc (- /}v'4/ to A/il-cvi/resIt'e Claim ith)/}).
and £(t)i as relied fo Cwfl&js j0erJtvfm/%f hf Se/ife/why
W on deed a/jaW, /s ftps &ise fmdf^ still ml op?ft,
OMfWj adm mfi! the Cwd cdJiJicnMs f/pse cfrnm TC?

-7-

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
TRACY ALAN BARNETT,
Petitioner, pro se,
v.

)

DEMAND FOR JUDICIAL RULING

)

ON CLAIMS NOT ADDRESSED

)

IN ORIGINAL HABEAS PETITION
[Fed. R. Civ. P. 54(b)]

)
)

UNITED STATES OF AMERICA,
Respondent.

**

Case No.

)

4:lO-cv-00593

)

LEGAL NOTICE

A A

** Federal Rules of Civil Procedure
Rule 54(b): "[A]ny order or other decision, however designated,
that adjudicates fewer than all the claims...
does not end the action as to any of the claims or
parties and may be revised at any time before the
entry of judgment adjudicating all the claims."
This pro se pleading IS NOT a second, NOR successive 28 U.S.C. § 2255
motion, as it does not raise new claims. Rather, Plaintiff re-asserts
his right that the Court address and adjudicate three claims in the
original habeas petition which have never been addressed/acknowledged
by the Court, 2255 Motion claims 1(h),(j), and 5(a), as related to
counsel's performance at sentencing and on direct appeal.

Respectfully submitted,

U'

Tracy A. Barnett
Petitioner / pro se

Date

-1LN-

Ml
Demand For Ruling On Claims Not Addressed In Original Habeas Petition
ARGUMENT FOR RULING ON UNRESOLVED §2255 CLAIMS
The United States Constitution provides that all persons held, or
i

sentenced in violation of the Constitution shall have the privilege
of the Writ of Habeas Corpus and that the privilege shall not be
suspended, unless "when in Cases of Rebellion or Invasion the public
Safety may require it." *[U.S. Const., Art.I, §9, Cl.2 ] .
Here, there has been a de facto suspension of the writ of habeas,
where the U.S. District Court failed to acknowledge, or address, all
of Petitioner's § 2255 Motion claims, specifically claims 1(h),(j),
and 5(a), as related to counsel's performance at sentencing, and on
direct appeal.
Petitioner has, thereby, been effectively denied any meaningful
opportunity to be heard as to the above specific Constitutional
claims, or of any opportunity to bring those habeas claims before thec

!

Appellate Court.

I
It is well established in the Eighth Circuit Court that in habeas.:
proceedings the Appellate Court may only review "final" orders of thedistrict courts. King v. Kelly, 797 F.3d 508, 511 (8th Cir. 2015). It
is also established that an appealable judgment must not only be
"final," but that it must also be complete as to all of the claims
that are raised by a habeas petitioner. Gray v. Swenson 430 F.2d 9,
11 (8th Cir. 1970) .
A final habeas decision generally is one which ends litigation on
the merits of all claims, and "leaves nothing for the Court to do but
execute the judgment." Stewart v. Bishop, 403 F.2d 674, 678 (8th Cir.
1968). The purpose of the "final decision" requirement under 28 USC §
1291 is to avoid piecemeal review. Stewart, 403 F.2d at 678.
Thus, regardless of the label given to the U.S. District Court's
01-06-11 Order, there cannot be a "final" judgment in this case where
the U.S. District Court has failed to adjudicate or resolve all of
the claims in Petitioner's 2255 Motion, specifically including claims
1(h),(j), and 5(a), as related to counsel's performance at sentencing
and on direct appeal.

-3i

Mb
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

(~No: 19-3695 (

Tracy Alan Barnett
Petitioner - Appellant
v.

United States of America
Respondent - Appellee
Appeal from U.S. District Court for the Southern District of Iowa - Des Moines
(4: lO-cv-00593-JAJ)
\ JUDGMENT^

Before SHEPHERD, ERICKSON, and STRAS, Circuit Judges.
This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district court is summarily affirmed. See Eighth Circuit
Rule 47A(a).
(March 19, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

J

/M7
Petition for Writ of Mandamus

No. 19.1492 / 11-1446
\

■ DILIGENCE IN SEEKING RELIEF \
The following are instances in which Petitioner has sought relief
concerning the unaddressed/unacknowledged/unresolved claims brought
in his original habeas petition:

° ^Pro se Rule 60(b) Motion: Petitioner sought relief in this matter
pursuant to Fed. R. Civ. P. 60(b), in which he requested that the
District Court address the habeas claims that were not acknowledged
or resolved in the original 2255 Motion *[Claims 1(h),(j), & 5(a)].
-- 60(b) Motion was summarily dismissed where the District Court
incorrectly stated that the motion was merely a second/successive
attempt to raise new claims *[S.D. IA • I 4:lO-cv-00593, Dkt. 21-30].
-- The Eighth Circuit Court of Appeals affirmed ruling on 03-05-12,
(8th Cir. No. 12-1336);
° \Pro se Rule 52(b) Motion: Petitioner sought relief in this matter
pursuant to Fed. R. Civ. P. 52(b), in which he requested that the
District Court address the habeas claims that were not acknowledged
or resolved in the original 2255 Motion *[Claims 1(h),(j), & 5(a)].
-- 52(b) Motion was summarily dismissed where the District Court
incorrectly stated that the motion was merely a second/successive
attempt to raise new claims *[S.D. IA • 1 4:lO-cv-00593, Dkt. 35-43].
-- The Eighth Circuit Court of Appeals affirmed ruling on 09-06-13,
(8th Cir. No. 13-2549);
° Vpro Se 28 U.S.C. § 2241 Motion: Petitioner sought habeas relief in
the District of Kansas under the provisions of § 2241, stating that
the § 2255 proceedings had been inadequate/ineffective to challenge
his conviction/sentence where the 2255 Court had failed to address
or acknowledge constitutional claims raised in the original 2255
Motion. -- 2241 Motion was summarily dismissed citing a lack of
jurisdiction *[Dist. Kan • t No. 5:13-CV-03203].
The Tenth Circuit
Court of Appeals affirmed ruling on 03-18-15, (10th Cir. #14-3188);

-6-

m
Petition for Writ of Mandamus

No. 19-1492 / 11-1446

° App. to file 2nd/Successive 2255: Petitioner further sought habeas
relief by requesting that the District Court and the Eighth Circuit
Court of Appeals allow Petitioner to file a second/successive 2255
Motion to address the unaddressed/unresolved claims in the original
2255 Motion *[Claims 1(h), (j), and 5(a)]. - The application to file
2nd/successive 2255 was based on new law in the U.S. Supreme Court
case Molina-Martinez v. United States, 136 S.Ct. 1338 (2016).
-- App. to file 2nd/successive 2255 denied by the District Court on
05-18-17 *[S.D. IA • f 4:17-cv-00152]. -- The Eighth Circuit Court of
Appeals denied the App. to file 2nd/successive 2255 on 08-25-17,
(8th Cir. No. 17-1950) ;
° Pro se Rule 54(b) Motion: Petitioner sought relief in this matter
pursuant to Fed. R. Civ. P. 54(b), in which he requested that the
District Court address the habeas claims that were not acknowledged
or resolved in the original 2255 Motion *[Claims 1(h),(j), & 5(a)].
-- 54(b) Motion was summarily dismissed where the District Court
incorrectly stated that the motion was merely a second/successive
attempt to raise new claims *[S.D. IA • t 4:lO-cv-00593, Dkt. 45-50].
-- This matter is the instant case which is currently pending in
the Eighth Circuit Court of Appeals (8th Cir. No. 19-1492).

Since the time that Petitioner's original habeas petition was
summarily dismissed in January 2011, Petitioner has repeatedly sought
relief in this matter under the above provisions of United States law
and the Federal Rules of Court.
However, as Petitioner is not a trained professional in the areas
of federal law, and is rather an average layperson when it comes to
legal matters, he has been unprepared to adequately represent himself
against the professional legal gladiators that he faces in the United
States Attorney's office, and the United States Courts.

-7-

m
Petition for Writ of Mandamus

No. 19-1492 / 11-1446

JURISDICTION ISSUES
28 U.S.C. § i291 provides that the courts of appeals shall have
jurisdiction of appeals from all final decisions of the district
courts of the United States.
Additionally, Fed. R. Civ. P. 54(b) provides that "any order or
other decision, however designated, that adjudicates fewer than all
the claims... does not end the action as to any of the claims or
parties and may be revised at any time before the entry of a judgment
adjudicating all the claims."
Here, where the U.S. District Court failed to address/resolve all
of the claims in Petitioner's original 2255 Motion, specifically
claims 1(h),(j), and 5(a) [sentencing/appellate counsel's performance
in failing to object to, or appeal the significantly over-calculated
USSG sentencing range], there has not been any "final" decision in
this particular habeas matter.
Wherefore, as there has legally been no final order/decision in
this case, the Eighth Circuit Court of Appeals did not have proper
subject matter jurisdiction under 28 U.S.C. § 1291 when it denied
Petitioner certificate of appealability on 06-10-11.
Rather, the
Appellate Court should have remanded the case back to the District
Court [S.D. IA.] at that time so that the remaining unresolved claims
could be fully adjudicated.
Because the District Court's 01-06-11 Order failed to address or
resolve 2255 Motion claims 1(h),(j), and 5(a) as related to counsel's
performance at sentencing / appeal, Petitioner has been denied of any
opportunity to bring those claims before the Appellate Court for any
review
de novo, clear error, or otherwise.
Had the Appellate Court conducted a review of claims l(h),(j), or
5(a), it would have found that Petitioner was sentenced to 5 months
over the maximum of the correct USSG sentencing range, without any
reasoning from the District Court for the unwarranted sentence. *[See
enclosed Motion for Judicial Notice of Adjudicative Facts].

-8-

45D
f28 U.S.C. § 2255 Habeas Petition

Related Cases]

3:06-cr-00599 U.S. v. Barnett - original criminal case [gpl] 10-18-07
[S.D. IA.]
[sen] 10-01-08
08-3350 (8th Cir.) Direct Appeal [Murray Bell]

Denied [d] 07-28-09

(Habeas Relief Sought;1
4:lQ-cv-00593 Barnett v. U.S. - Original habeas petition [d] 01-06-11
|l1-1446}(8th Cir.) COA *[Jurisdiction - Rule 54(b)]

Denied 06-10-11

4:lQ-cv-00593 Rule 60(b) Motion [Const, as 2nd/Suc]

Denied 01-13-12

fl2-1336s (8th Cir.) Appeal denial of R. 60(b) Motion

Denied 03-05-12

4:lQ-cv-00593 Rule 52(b) Motion [Const, as 2nd/Suc]

Denied 06-11-13

Si 3-2 5 4 9S (8th Cir.) Appeal denial of R. 52(b) Motion

Denied 09-06-13

5:13-cv-03203 Barnett v. Maye
28 U.S.C. § 2241
Dismissed 12-16-13
[Dist. Kan] *2255 inadequate/ineffective
**[Lack of jursdiction]
Si 4 - 318 8X (10th Cir.) Appeal dismissal of 2241 Motion - Denied 03-17-15
4:17-cv-00152 Barnett v. U.S. [App. to file 2nd/Suc.] Denied 05-18-17
Sl7-1950^ (8th Cir.) Barnett v. U.S. [App for 2nd/Suc.] Denied 08-25-17
"17-2273, (8th Cir. ) ** Petition for Writ of Mandamus

Denied 08-25-17

4:lQ-cv-00593 Rule 54(b) Motion *[Ruling on claims]

Denied 02-12-19

,19-1492](8th Cir.) Appeal denial of R. 54(b) Motion

- Cases related to habeas proceedings -

